                                              EMPLOYMENT AND
                                              TRAINING ADMINISTRATION

Office of Inspector General—Office of Audit




                                              THE FEDERAL/STATE UNEMPLOYMENT
                                              INSURANCE PARTNERSHIP NEEDS ENHANCED
                                              FEDERAL OVERSIGHT TO ESTABLISH RELIABLE
                                              INFORMATION TECHNOLOGY CONTINGENCY
                                              PLANS




                                                                    Date Issued:   September 29, 2008
                                                                    Report Number: 23-08-004-03-315
U.S. Department of Labor                              September 2008
Office of Inspector General
Office of Audit                                       The Federal/State Unemployment
                                                      Insurance Partnership Needs Enhanced
                                                      Federal Oversight to Establish Reliable
BRIEFLY…                                              Information Technology Contingency
                                                      Plans
Highlights of Report Number: 23-08-004-03-315,
to the Deputy Assistant Secretary for Employment
and Training.                                         WHAT OIG FOUND

                                                      Our audit disclosed that ETA requires the SWAs
WHY READ THE REPORT                                   to develop and implement disaster-recovery plans
                                                      as a condition of their grant agreements, but does
As a result of widespread congressional and           not verify that the plans are developed, tested, or
public interest in disaster preparedness planning,    meet accepted practices. Our audit showed that
the Office of Inspector General (OIG) conducted a     three of four SWAs audited may not be able to
performance audit of the Employment and               recover the UI Tax and Benefit Systems
Training Administration’s (ETA) oversight of          necessary to maintain operational capability in a
Information Technology (IT) contingency planning      timely, orderly manner or perform essential
performed by State Workforce Agencies (SWA) in        functions during an emergency or other situation
support of the Unemployment Insurance (UI)            that may disrupt normal operations. We also
program.                                              found inconsistent validation methodologies used
                                                      among the SWAs for reaching assurance of a
The UI program, a Federal-state partnership, is       disaster-response capability.
the Department of Labor’s (DOL) largest income-
maintenance program. While Federal law                These conditions occurred because ETA has not
determines the framework of the program,              fully carried out its leadership responsibilities in
benefits for individuals are dependent on state law   overseeing the UI program by providing needed
and administered by the SWA. The UI program           oversight and targeted guidance to the SWAs
provides unemployment benefits to eligible            regarding ETA’s expectation of an IT disaster-
workers who are unemployed through no fault of        recovery capability. ETA had not ensured the
their own. The Assistant Secretary of ETA has         SWAs developed and maintained contingency
the responsibility for oversight of the SWAs’         plans.
administration of the program. SWAs use the UI
Tax and Benefit IT Systems to administer and          As a result, ETA does not have assurance that UI
deliver benefits to eligible claimants.               program benefits would be provided to eligible
                                                      claimants in the event of a disaster or service
WHY OIG DID THE AUDIT                                 disruption which could have a negative financial
                                                      impact on individuals, families, and state
                                                      economies. Without ETA providing effective
The purpose of our audit was to answer the
                                                      oversight and guidance, it is not likely reliable
following question:
                                                      SWA contingency plans will be in place when
                                                      needed the most. Further, ETA officials do not
    Does ETA provide sufficient oversight of
                                                      have a high degree of knowledge or involvement
    SWAs IT contingency planning for the UI
                                                      in the SWAs’ readiness to deal with how disasters
    program in order to minimize service
                                                      affect their delivery of benefits to eligible
    disruption in the event of a disaster or other
                                                      claimants.
    situation that may disrupt normal operations?
                                                      WHAT OIG RECOMMENDED
READ THE FULL REPORT
To view the report, including the scope,              We recommended that the Assistant Secretary for
methodology, and full agency response, go to:         Employment and Training: enact a monitoring and
                                                      review process to verify SWAs develop and test IT
http://www.oig.dol.gov/public/reports/oa/2008/        contingency plans necessary to sustain the UI
23-08-004-03-315.pdf                                  program; and identify and address any
                                                      weaknesses found in IT contingency plans. The
                                                      Deputy Assistant Secretary for Employment and
                                                      Training agreed with the recommendations.
                                                           U.S. Department of Labor – Office of Inspector General




Table of Contents
                                                                                                                    PAGE

EXECUTIVE SUMMARY ................................................................................................ 3

ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 7

   ETA needs to strengthen its oversight of SWA IT contingency
   planning for the UI program in order to minimize service
   disruptions in the event of a disaster or other situation that may
   disrupt normal operations. ....................................................................................... 9

APPENDICES ............................................................................................................... 19

   A. Background ......................................................................................................... 21
   B. Objective, Scope, Methodology and Criteria .................................................... 25
   C. Acronyms and Abbreviations ............................................................................ 31
   D. Agency Response to Report .............................................................................. 33




                                                                Unemployment Insurance IT Contingency Planning
                                                                                  Report No. 23-08-004-03-315
               U.S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




                    Unemployment Insurance IT Contingency Planning
                2                     Report No. 23-08-004-03-315
                                           U.S. Department of Labor – Office of Inspector General




Executive Summary
As a result of widespread congressional and public interest in disaster preparedness
planning, the Office of Inspector General (OIG) conducted a performance audit of the
Employment and Training Administration’s (ETA) oversight of Information Technology
(IT) contingency planning performed by State Workforce Agencies (SWA) in support of
the Unemployment Insurance (UI) program. The UI program, a Federal-state
partnership, is the Department of Labor’s (DOL) largest income maintenance program.
While Federal law determines the framework of the program, benefits for individuals are
dependent on state law and administered by SWA. The UI program provides
unemployment benefits to eligible workers who are unemployed through no fault of their
own. The Assistant Secretary of ETA has the responsibility for oversight of the SWAs’
administration of the program. SWAs use the UI Tax and Benefit IT Systems to
administer and deliver benefits to eligible claimants.

The audit objective was to answer the following question:

Does ETA provide sufficient oversight of SWAs IT contingency planning for the UI
program in order to minimize service disruption in the event of a disaster or other
situation that may disrupt normal operations?

To achieve our objective, we evaluated contingency plans in place at four SWAs. We
also reviewed ETA oversight activities at ETA regional offices (RO) and ETA’s
headquarters (HQ).

Summary of Results and Findings

ETA needs to strengthen its oversight of SWA IT contingency planning for the UI
program in order to minimize service disruption in the event of a disaster or other
situation that may disrupt normal operations.

Our audit disclosed that, while ETA requires SWAs to develop and implement disaster
recovery plans as a condition of their grant agreements, it does not verify that the plans
are developed or tested. Our audit showed that three of four SWAs audited may not be
able to recover the UI Tax and Benefit Systems necessary to maintain operational
capability in a timely, orderly manner or perform essential functions during an
emergency or other situation that may disrupt normal operations. Office of
Management and Budget (OMB) Circular A-130, Management of Federal Information
Resources, Appendix III, Security of Federal Automated Information Resources (A-130),
states that agency managers should ensure contingency plans be periodically tested to
perform the agency function supported by the computer application in the event of
failure of its automated support.



                                                Unemployment Insurance IT Contingency Planning
                                            3                     Report No. 23-08-004-03-315
                                           U.S. Department of Labor – Office of Inspector General


For three SWAs, we identified the following deficiencies:

•   One SWA did not develop an IT contingency plan for the UI Tax and Benefit System
    even though it had obtained supplemental grants totaling $198,500 for this purpose.
    In years when funding is available, ETA awards supplemental funds to selected
    SWAs to address the UI IT security weaknesses that have been identified by
    previous security audits, or by SWA IT self-assessment that comply with National
    Institute of Standards and Technology (NIST) IT security guidelines. SWAs apply for
    these funds through supplemental budget requests that address a specific security
    weakness. By submitting the proposal, the SWA agrees to provide any additional
    funds, if needed, to complete the project. The SWA was able to provide us with a
    project plan to complete the IT contingency plan, but officials told us they could not
    identify the resources that will be needed to maintain it.
•   One SWA did not address the recovery of all critical systems and components
    necessary to ensure continuity of operations. Specifically, the plan did not address
    an alternative to printing benefit checks in the event of a service disruption at the
    state’s check printing facility. In addition, the plan did not include adequate backup
    telecommunications systems or procedures to allow for reconstitution of all UI
    systems.
•   One SWA had not updated its IT contingency plan since 2004, and it contained
    information that was either outdated, obsolete, or missing. In addition, the plan
    contained deficiencies in the design and implementation of controls that are critical
    to ensure the continued functioning of the UI program. We also found the two other
    SWAs did not update their contingency plans in a timely manner.

In addition, three of the four SWAs did not have a training program for personnel with
critical IT UI roles and responsibilities; did not finalize and implement IT contingency-
planning policies; and had not performed adequate testing of their IT contingency plans.
In addition, the SWAs did not have, or used inconsistent validation methods, for basing
their assurance of disaster-response capability.

These conditions occurred in part because ETA did not provide effective oversight and
lacked necessary policies and procedures to verify that SWAs developed and tested
contingency plans for the UI Tax and Benefit System. As a result, ETA does not have
assurance that UI program benefits would be provided to eligible claimants in the event
of a disaster or service disruption which could have a negative financial impact on
individuals, families, and state economies.

Recommendations

In summary, we recommend the Assistant Secretary for Employment and Training:
enact a monitoring and review process to verify SWAs develop and test IT Contingency
Plans necessary to sustain the UI program; and identify and address any weaknesses
found in IT contingency plans.



                                                Unemployment Insurance IT Contingency Planning
                                            4                     Report No. 23-08-004-03-315
                                         U.S. Department of Labor – Office of Inspector General


Agency Response

The Deputy Assistant Secretary for Employment and Training agreed the
recommendations will enhance ETA’s ability to perform oversight of IT contingency
planning in the SWAs; and also provided funding estimates needed to implement the
recommendations. ETA’s response also outlined efforts the agency has made
regarding IT contingency planning over the past eight years within its available
resources. The response is provided in full in Appendix D.

OIG Conclusion

Based on ETA's response to the draft report, the report recommendations remain
unresolved. The recommendations will be resolved when ETA provides documentation
indicating plans and milestone dates for implementing corrective actions. The
recommendations will be closed upon receipt of documentation showing that the
planned corrective actions have been completed, and OIG verifications of those actions.




                                               Unemployment Insurance IT Contingency Planning
                                           5                     Report No. 23-08-004-03-315
               U.S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




                    Unemployment Insurance IT Contingency Planning
                6                     Report No. 23-08-004-03-315
                                            U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                      Office of Inspector General
                                              Washington, DC 20210




September 29, 2008

                         Assistant Inspector General’s Report

Mr. Brent R. Orrell
Deputy Assistant Secretary for
   Employment and Training
U. S. Department of Labor
Frances Perkins Building
200 Constitution Avenue, NW
Washington, DC 20210

The devastating impact of Hurricanes Katrina and Rita to the Gulf Coast Region in 2005
has increased awareness of the effects natural disasters can have on our society. The
Department’s agencies have felt the impact internally, particularly in ETA in its
responsibility for oversight of the Federal-State UI program. The UI program, a Federal-
State partnership, is the Department’s largest income-maintenance program. The UI
program provides unemployment benefits to eligible workers who are unemployed
through no fault of their own. The Assistant Secretary of ETA has the responsibility for
oversight of the SWAs’ administration of the program. Collaboratively, ETA provides
oversight through guidance, direction and distribution of administrative funds to the
SWAs, while SWAs utilize the UI Tax and Benefit IT Systems to administer and deliver
benefits to eligible claimants. ETA provides administrative funding to the SWAs via
annual UI funding agreements (grant agreements), which contain requirements for the
SWAs to ensure timely UI benefits payments can be made.

As a result of widespread congressional and public interest in disaster preparedness
planning, the OIG conducted a performance audit of ETA’s oversight of IT contingency
planning performed by SWAs in support of the UI program. In the aftermath of the 2005
hurricanes, Federal officials began to question the ability of the SWAs to continue
operating the UI program without interruption in the event of a disaster or other service
disruption. The OIG initiated this audit of SWA IT contingency plans for the UI tax and
benefit systems based on the Assistant Secretary of ETA’s inquiry regarding their
viability.

Specifically, the audit objective was to answer the following question:

   Does ETA provide sufficient oversight of SWA IT contingency planning for the UI
   program in order to minimize service disruption in the event of a disaster or other
   situation that may disrupt normal operations?

We tested to determine if the SWAs have adequate IT contingency plans in place to
support critical UI program functions in the event of a disaster or service disruption to

                                                 Unemployment Insurance IT Contingency Planning
                                             7                     Report No. 23-08-004-03-315
                                           U.S. Department of Labor – Office of Inspector General


the IT supporting the UI program. We selected a sample of four SWAs from a universe
of 53 for detailed examination. These states were determined to be high risk based on
historical data and professional judgment regarding frequency of disasters declared in
each state from the Federal Emergency Management Agency (FEMA). In addition, we
assessed the Federal oversight of SWA IT contingency planning and UI grant
administration. This was accomplished through assessing the monitoring activities
conducted by ETA in support of the Federal-State UI partnership. We reviewed the
Federal-State UI grant agreement and the level of guidance, review and monitoring
done at the Federal level by ETA.

Based on our audit results, we concluded ETA needs to strengthen its oversight of SWA
IT contingency planning for the UI program in order to minimize service disruptions in
the event of a disaster or other situation that may disrupt normal operations. This report
details our findings and recommendations related to our objective.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Our objective, scope, methodology, and criteria are detailed in
Appendix B.




                                                Unemployment Insurance IT Contingency Planning
                                            8                     Report No. 23-08-004-03-315
                                           U.S. Department of Labor – Office of Inspector General


Objective – Does ETA provide sufficient oversight of SWA IT contingency planning for
the UI program in order to minimize service disruption in the event of a disaster or other
situation that may disrupt normal operations?


ETA needs to strengthen its oversight of SWA IT contingency planning for the UI
program in order to minimize service disruptions in the event of a disaster or
other situation that may disrupt normal operations.

Our audit disclosed that ETA requires the SWAs to develop and implement disaster
recovery plans as a condition of their grant agreements. However, ETA does not verify
the plans are developed, tested, or meet accepted practices. Our audit showed that
three of four SWAs audited may not be able to recover the UI Tax and Benefit Systems
necessary to maintain operational capability in a timely, orderly manner or perform
essential functions during an emergency or other situation that may disrupt normal
operations. We also found inconsistent validation methodologies used among the SWAs
for reaching assurance of a disaster-response capability.

These conditions occurred because ETA has not fully carried out its leadership
responsibilities in overseeing the UI program by providing needed oversight and
targeted guidance to the SWAs regarding ETA’s expectation of an IT disaster-recovery
capability. ETA lacked the necessary policies and procedures to verify that the SWAs
have developed and tested contingency plans for the UI Tax and Benefit System.
Further, the SWAs did not recognize the importance of the assurance statements in the
grant administration process. ETA had not ensured the SWAs developed and
maintained plans, and several SWAs had not placed a focus on IT contingency
planning.

As a result, ETA does not have assurance that UI program benefits would be provided
to eligible claimants in the event of a disaster or service disruption which could have a
negative financial impact on individuals, families, and state economies. Without ETA
providing effective oversight and guidance, it is not likely reliable SWA contingency
plans will be in place when needed the most. Further, ETA officials do not have a high
degree of knowledge or involvement in the SWAs’ readiness to deal with how disasters
affect their delivery of benefits to eligible claimants.

The Social Security Act of 1935, section 303 (a)(1), requires that the SWAs have means
of administering the UI program that “. . . are found by the Secretary of Labor to be
reasonably calculated to insure full payment of unemployment compensation when
due.” In order for the Secretary of Labor to ensure that SWAs have adequate disaster-
recovery capabilities, the grant agreement between DOL and each SWA contains an
assurance of disaster-recovery capability. Assurance H in the grant agreement is the
“Assurance of Disaster Recovery Capability,” which is explained in further detail in
Employment and Training (ET) Handbook No. 336, as “The state assures that it will
maintain a Disaster Recovery Plan." Each SWA must attest to this assurance via



                                                Unemployment Insurance IT Contingency Planning
                                            9                     Report No. 23-08-004-03-315
                                           U.S. Department of Labor – Office of Inspector General


signature in order to receive annual Federal grant funding for the administration of the
SWA UI program.

The following are areas in which weaknesses were found in UI IT contingency plans
and related oversight.

I. Unreliable IT Contingency-Planning Capabilities

Through our audit of a sample of four high-risk states and collection of IT contingency
plans from the SWAs, we determined that IT contingency-planning activities conducted
by the SWAs were not adequate and may not allow for the timely recovery of the UI
programs if the IT supporting those programs were affected by a disaster or other
service interruption. Three of four SWAs audited may not be able to recover the UI Tax
and Benefit Systems necessary to maintain operational capability in a timely, orderly
manner or perform essential functions during an emergency or other situation that may
disrupt normal operations. Additionally, our analysis of all 53 SWAs’ responses to our
request for IT contingency plans revealed that 2 SWAs had no plan at all, although all
53 have certified in their grants they have disaster-recovery capability.

Specifically, in the four SWAs we identified the following:

   •   One SWA did not develop an IT contingency plan for the UI Tax and Benefit
       System. The SWA had obtained $198,500 from supplemental ETA grants for
       this purpose. In years when funding is available, ETA awards supplemental
       funds to selected SWAs to address the UI IT security weaknesses that have
       been identified by previous security audits, or by SWA IT self-assessment that
       comply with NIST IT security guidelines. SWAs apply for these funds through
       supplemental budget requests that address a specific security weakness. By
       submitting the proposal, the SWA agrees to provide any additional funds, if
       needed, to complete the project. While the SWA provided a project plan to
       complete the IT contingency plan, it had not identified the resources needed to
       develop the contingency plan once completed.
   •   One SWA’s contingency plan did not address the recovery of all critical systems
       and components necessary to ensure continuity of operations. Specifically, the
       plan did not address an alternative to printing benefit checks in the event of a
       service disruption at the state’s check printing facility. In addition, the plan did
       not include adequate backup telecommunications systems or procedures to allow
       for reconstitution of all UI systems.
   •   One SWA had not updated its IT contingency plan since 2004, and the plan
       contained information that was either outdated, obsolete, or missing. In addition,
       the plan contained deficiencies in the design and implementation of controls that
       are critical to ensure the continued functioning of the UI program.
   •   One SWA had a generally robust IT contingency-planning capability; however,
       the SWA had not implemented an IT contingency-planning policy. This
       robustness was based on the SWA implementing key controls to support its IT
       contingency-planning capability including maintaining critical UI information


                                                 Unemployment Insurance IT Contingency Planning
                                            10                     Report No. 23-08-004-03-315
                                            U.S. Department of Labor – Office of Inspector General


       system backups, having alternate processing and storage facilities, utilizing
       telecommunications redundancy, documenting reconstitution procedures, as well
       as testing its IT contingency-planning capability.

In accordance with NIST Special Publication (SP) 800-34, Contingency Planning Guide
for Information Technology Systems (NIST SP 800-34), proper IT contingency
planning can assist in maintaining the continued availability of an information system in
the event of disaster or other system disruption.

II. Specific Contingency-Planning Control Deficiencies

Based on the analysis of the commonalities in control deficiencies identified across the
four SWAs audited, we found specific issues in IT contingency-planning training,
updating, policy, and testing. Three of the four states audited had no training program
for personnel with critical IT UI roles and responsibilities; did not update IT contingency
plans in a timely manner; did not have finalized and implemented IT contingency-
planning policies in place; and had not performed adequate testing of their IT
contingency-planning capabilities. Each deficiency is detailed below:

IT Contingency Plan Training

Three of the four SWAs had no training program for personnel with critical IT UI roles
and responsibilities. In one SWA, training had not been done in four years, and the
auditors were told this was because the core personnel had remained static since the
training was conducted.

NIST SP 800-34, notes:

       Training for personnel with contingency plan responsibilities should
       complement testing. Training should be provided at least annually; new
       hires who will have plan responsibilities should receive training shortly
       after they are hired. Ultimately, contingency plan personnel should be
       trained to the extent that that they are able to execute their respective
       recovery procedures without aid of the actual document. This is an
       important goal in the event that paper or electronic versions of the plan are
       unavailable for the first few hours resulting from the extent of the disaster.

IT Contingency Plan Updates

In three of the four SWAs the IT contingency plans were not updated in a timely
manner. In one of those three SWAs, the plan had not been updated since 2004 (a
three year time lapse). In another, the update was done annually; however, the auditors
found names and contact information that were incorrect because they had changed
since the previous update.




                                                  Unemployment Insurance IT Contingency Planning
                                             11                     Report No. 23-08-004-03-315
                                          U.S. Department of Labor – Office of Inspector General


NIST SP 800-34 relates:

      To be effective, the plan must be maintained in a ready state that
      accurately reflects system requirements, procedures, organizational
      structure, and policies. IT systems undergo frequent changes because of
      shifting business needs, technology upgrades, or new internal or external
      policies. Therefore, it is essential that the contingency plan be reviewed
      and updated regularly, as part of the organization’s change management
      process, to ensure new information is documented and contingency
      measures are revised if required.

IT Contingency Plan Policy

Three of four SWAs did not have finalized and implemented IT contingency-planning
policies in place at the time our audit, although two of these SWAs’ policies were in
various stages of development.

NIST SP 800-34 describes:

      To be effective and to ensure that personnel fully understand the agency’s
      contingency planning requirements, the contingency plan must be based
      on a clearly defined policy. The contingency planning policy statement
      should define the agency’s overall contingency objectives and establish
      the organizational framework and responsibilities for IT contingency
      planning. To be successful, senior management, most likely the Chief
      Information Officer, must support a contingency program. These officials
      should be included in the process to develop the program policy, structure,
      objectives, and roles and responsibilities.

IT Contingency Plan Testing

Three of four SWAs performed inadequate testing of their IT contingency-planning
capabilities. In one SWA, no testing was done at all; in another, testing had not been
completed since 2006 (a 15 month time lapse); and in a third SWA, a comprehensive
test involving all of the necessary systems for administering the UI program had never
been completed.

NIST SP 800-34 states:

      Plan testing is a critical element of a viable contingency capability.
      Testing enables plan deficiencies to be identified and addressed. Testing
      also helps evaluate the ability of the recovery staff to implement the plan
      quickly and effectively. Each IT contingency plan element should be
      tested to confirm the accuracy of individual recovery procedures and the
      overall effectiveness of the plan.



                                                Unemployment Insurance IT Contingency Planning
                                           12                     Report No. 23-08-004-03-315
                                           U.S. Department of Labor – Office of Inspector General


III. Inconsistent Validation Methodologies

We found inconsistent validation methodologies used among the four SWAs for
reaching assurance of a disaster-response capability they attest to ETA annually in their
grant agreements. Across the four SWAs audited we found:

   •   In one SWA, budget and fiscal officials stated they have comfort in signing the
       assurance of a disaster-recovery capability based on the knowledge that there is
       a continuity-of-business plan for the SWA. When asked if there is any review of
       the IT contingency plan, they stated they are aware the Information Security
       Office (ISO) puts the plan together and that was satisfactory. However, the ISO
       does not perform, and has no expectations of, an integrated review that
       incorporates the multiple branches of the SWA for the purpose of coordinating
       the IT contingency plan.
   •   In one SWA, the auditors were unable to determine whether the State’s
       Secretary of Labor sought input from anyone with regard to IT disaster recovery
       before signing the grant agreement. IT officials did not discuss the grant
       agreement with the Secretary, yet they expressed confidence the Secretary was
       aware of the assurance of IT disaster recovery.
   •   In one SWA, program officials look at the assurance statements in the grant
       agreement and determine if anything has been added from the previous year,
       and, if not, they presumptuously sign the document. According to SWA officials,
       this is a process they have been doing for many years, which started before the
       current officials joined the SWA.
   •   In one SWA, the signatory official was highly involved in the IT contingency plan
       process and aware of the capability when signing; however, this was not due to
       any specific actions taken by ETA.

Although there is no specific criteria for states to utilize in verifying their respective
disaster-response capability assurances, ETA may respond to noncompliance of an
assurance in the grant agreement. Specifically, Title 29, Code of Federal Regulations
(CFR), Section 97.43 (29 CFR 97.43), establishes ETA as an enforcement authority
empowered to award the grant only when all requirements of it are met. Additionally, 29
CFR, Section 97.50 (29 CFR 97.50), entitles ETA to respond to noncompliance with an
assurance by taking action ranging from withholding current or future funding, holding
hearings or pursuing further legal remediation.

IV. Insufficient ETA Oversight

Assurance of Grant Compliance

ETA requires the SWAs to develop and implement disaster-recovery plans as a
condition of their grant agreements. ETA, however, does not verify the plans are
developed, tested, or meet accepted practices. As the Federal agency responsible for
monitoring the proper stewardship of Federal grant funding by the SWAs for the
administration of the UI program, ETA is responsible to ensure the SWAs are in


                                                 Unemployment Insurance IT Contingency Planning
                                            13                     Report No. 23-08-004-03-315
                                           U.S. Department of Labor – Office of Inspector General


compliance with all provisions of the Federal UI grant agreement. The agreement lays
out requirements of receiving these Federal resources. Without assurance the SWAs
meet the requirements of their respective grant agreements, ETA cannot ensure
resources are being properly utilized. ETA Office of Workforce Security officials stated
the assurances in the grant agreements are self-certifications. ETA officials from the
three ROs with direct oversight responsibility for the audited SWAs’ also stated they do
not complete any systematic verification to determine if the SWAs maintain the
assurances of an IT disaster-recovery capability. ETA, therefore, accepts the SWAs’
assurance statements at face value. ETA officials were unaware that a State with a
high frequency of declared disasters had no IT contingency plan for the UI program at
all until we presented our audit results to them. Based on this, we concluded ETA
officials do not have a high degree of knowledge or involvement in the SWAs’ readiness
to deal with disasters that may effect their systems.

OMB Circular A-123, Management’s Responsibility for Internal Control, Introduction, (A-
123), describes agency managers’ and staff’s responsibilities for efficient use of
resources as:

       The proper stewardship of Federal resources is a fundamental
       responsibility of agency managers and staff. Federal employees must
       ensure that government resources are used efficiently and effectively to
       achieve intended program results. Resources must be used consistent
       with agency mission, in compliance with law and regulation, and with
       minimal potential for waste, fraud, and mismanagement.

Compliance with Social Security Act

Maintaining IT contingency plans is a requirement of SWAs receiving Federal funding
for the administration of the UI Program. ETA officials did not, however, require the
SWAs to maintain such plans pursuant to meeting Federal law outlined in the Social
Security Act. This Act requires state laws provide for methods of administration as will
reasonably ensure the prompt and full payment of unemployment benefits to eligible
claimants, and collection and handling of income for the State unemployment fund, with
the greatest accuracy feasible. Title 20, CFR- Employee Benefits, Part 602 - Quality
Control in the Federal-State Unemployment Insurance System (20 CFR 602), contains
the Secretary of Labor's interpretation of the Social Security Act section 303 (a)(1),
"Such methods of administrations … as are found by the Secretary of Labor to be
reasonably calculated to insure full payment of unemployment compensation when
due."

The Secretary's interpretation of Social Security Act section 303 (a)(1) is as follows:

       (a) The Secretary interprets section 303(a)(1), Social Security Act, to
       require that a State law provide for such methods of administration as will
       reasonably ensure the prompt and full payment of unemployment benefits
       to eligible claimants, and collection and handling of income for the State


                                                 Unemployment Insurance IT Contingency Planning
                                            14                     Report No. 23-08-004-03-315
                                           U.S. Department of Labor – Office of Inspector General


      unemployment fund (particularly taxes and reimbursements), with the
      greatest accuracy feasible.

ETA stated the SWAs would be able to administer the UI program manually in case of a
disaster. OMB A-130 specifically notes that manual processes are not an acceptable
solution for interruptions to service:

      Inevitably, there will be service interruptions. Agency plans should assure
      that there is an ability to recover and provide service sufficient to meet the
      minimal needs of users of the system. Manual procedures are generally
      NOT a viable back-up option. When automated support is not available,
      many functions of the organization will effectively cease. Therefore, it is
      important to take cost effective steps to manage any disruption of service.

OMB A-130 outlines that managers should implement security controls, including IT
contingency planning, consistent with guidance developed by NIST for automated
systems. NIST provides specific guidelines for IT contingency planning.

Guidance

ETA does help the SWAs understand the use of industrial best practices for IT
contingency plan development by distributing relevant information regarding industry
best practices. In previous years, ETA has issued guidance to the SWAs regarding IT
security control implementation. In June 2004, ETA issued Unemployment Insurance
Program Letter (UIPL) No. 24-04 - Unemployment Insurance Information Technology
Security. The purpose of UIPL No. 24-04 was to provide SWAs with specific
information on NIST IT security guidelines and a software tool for conducting a security
self-assessment of UI systems. The SWAs are encouraged to use this guidance, but
there is no requirement to adhere to it or to use the self-assessment tool. In addition,
the NIST guidance encompasses many IT security controls and is not targeted for IT
contingency planning.

The SWAs are not required by law to meet Federal guidelines for securing the SWA UI
Systems. However, ETA, in the absence of equal or better policy, should rely on Federal
guidance to accomplish effective oversight in determining what constitutes required SWA
IT contingency plans. OMB A-130 describes managers’ responsibilities for contingency
planning, as follows:

      Managers should plan for how they will perform their mission and/or
      recover from the loss of existing application support, whether the loss is
      due to the inability of the application to function or a general support
      system failure. Experience has demonstrated that testing a contingency
      plan significantly improves its viability. Indeed, untested plans or plans not
      tested for a long period of time may create a false sense of ability to
      recover in a timely manner.



                                                 Unemployment Insurance IT Contingency Planning
                                            15                     Report No. 23-08-004-03-315
                                          U.S. Department of Labor – Office of Inspector General


Conclusion

There is concern that the deficiency in ETA’s oversight and the conditions found in the
SWAs occurred in part from ETA not taking needed and appropriate leadership actions
to carry the message to the SWAs regarding the importance of the assurance statement
in the grant agreement. We found ETA lacked necessary policies and procedures to
verify that the SWAs developed and tested contingency plans for the UI Tax and Benefit
System which contributes to this concern. In addition, ETA did not have a process in
place to verify the SWAs assurance of a disaster-response capability, which in turn led
to the SWAs not focusing on IT contingency planning.

According to one SWA's Business Impact Analysis for the UI program:

      UI offers the first line of defense against the ripple effects of
      unemployment by providing payments to unemployed workers to ensure
      that at least a proportion of life’s necessities can be met on a week-to-
      week basis while searching for work.

In the event of a major disruption that delays or halts the UI program, unemployed
workers may suffer grave consequences and a state's economy would be affected.
One SWA estimated the potential affect of such an occurrence to be $7 million, also
resulting in 44,500 individuals not receiving their unemployment benefits checks and
10,000 individuals not filing UI claims.

Recommendations

We recommend the Assistant Secretary for ETA:

1) Develop a comprehensive framework for IT contingency planning that when
   implemented by the SWAs provides a consistent level of risk reduction. This
   framework shall include minimum standards regarding implementation of critical
   control elements of an IT disaster-recovery capability that are widely recognized to
   be necessary to reduce the risk of system unavailability. For example, update the
   ET Handbook to expand the details of Assurance H. “Assurance of Disaster
   Recovery Capability” in ET Handbook No. 336, Unemployment Insurance SQSP
   Planning and Reporting Guidelines, 18th Edition, to include this framework.

2) Develop and implement a monitoring and review process whereby ETA or a third
   party:

   a) Verifies that SWAs have IT contingency plans as required in the grant
      agreement;
   b) Ensures SWA IT contingency plans will provide adequate support to critical UI
      program functions in the event of a disaster or service disruption by validating
      and signing-off on each SWAs’ grant agreement’s assurance of a disaster-
      recovery capability; and

                                                Unemployment Insurance IT Contingency Planning
                                           16                     Report No. 23-08-004-03-315
                                         U.S. Department of Labor – Office of Inspector General


   c) Ensures any IT contingency-planning weaknesses identified in the validations, or
      independently by the SWAs, are captured in specific corrective action plans for
      remediation which will include acceptable timelines for completion.

Agency Response

The Deputy Assistant Secretary for Employment and Training agreed the
recommendations will enhance ETA’s ability to perform oversight of IT contingency
planning in the SWAs; and also provided funding estimates needed to implement the
recommendations. ETA’s response also outlined efforts the agency has made
regarding IT contingency planning over the past eight years within its available
resources. The response is provided in full in Appendix D.

OIG Conclusion

Based on ETA's response to the draft report, the report recommendations remain
unresolved. The recommendations will be resolved when ETA provides documentation
indicating plans and milestone dates for implementing corrective actions. The
recommendations will be closed upon receipt of documentation showing that the
planned corrective actions have been completed, and OIG verifications of those actions.




Elliot P. Lewis




                                               Unemployment Insurance IT Contingency Planning
                                          17                     Report No. 23-08-004-03-315
               U.S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




                     Unemployment Insurance IT Contingency Planning
                18                     Report No. 23-08-004-03-315
             U.S. Department of Labor – Office of Inspector General




Appendices




                   Unemployment Insurance IT Contingency Planning
              19                     Report No. 23-08-004-03-315
               U.S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




                     Unemployment Insurance IT Contingency Planning
                20                     Report No. 23-08-004-03-315
                                          U.S. Department of Labor – Office of Inspector General


                                                                               APPENDIX A
BACKGROUND

In 1935, in order to confront the economic woes in the United States caused by massive
job losses during the Great Depression the Federal-State UI program was created to
help out-of-work individuals, businesses, and the nation's economy as a whole. The
purpose of the program is to provide aid to individuals who are unemployed due to
circumstances outside of their control.

The UI program, a Federal-State partnership, is DOL’s largest income-maintenance
program. The primary law that established the Federal-State UI partnership is the
Social Security Act of 1935. In accordance with Title III, Section 302, of the Social
Security Act, which authorizes the Secretary of Labor to provide funds to administer the
UI program, and Sections 303 (a) (8) and (9), which govern the expenditure of those
funds, the Secretary of Labor has a responsibility to ensure the funds are appropriately
approved for reporting to the Secretary of the Treasury.

While Federal law determines the framework of the program, benefits for individuals are
dependent on state law and administered by the SWAs. The Federal government is
charged with collecting taxes; distributing administrative funding to the states;
maintaining responsibility for the Unemployment Trust Fund; setting and tracking
performance measures; monitoring compliance with both Federal and state
regulations; and creating policy nationwide for administering the program. The SWAs
are charged with constructing policy and procedures in accordance with Federal criteria;
establishing and collecting state taxes; validating claims and paying them out when
acceptable; and running the program according to existing criteria.

According to 20 CFR, Part 602, the Secretary's interpretation of the Social Security Act
section 303 (a)(1), is, in part, "Such methods of administrations…as are found by the
Secretary of Labor to be reasonably calculated to insure full payment of unemployment
compensation when due."

The Secretary of Labor oversees the program through ETA, which oversees the UI
program. ETA provides administrative funding to the SWAs via annual UI Funding
agreements (i.e. grant agreements), which contain requirements of the SWAs.
Although the Federal Government is charged with providing funds for the administration
of the UI program, since 1995, there has been a decline in this funding to SWAs from
DOL. This is due to grant calculations no longer taking inflation into account.
Some SWAs supplement Federal funds with state funding to help cover the
administrative costs of the UI program. Further, the SWAs have had increased difficulty
in receiving additional funds for the administration of the program in times of high
unemployment.

Some of the requirements of the grant agreement are included in the assurances that
each SWA must annually attest to via signature in order to receive annual Federal grant
funding for the administration of the SWA UI program. In order for the Secretary of

                                                Unemployment Insurance IT Contingency Planning
                                           21                     Report No. 23-08-004-03-315
                                           U.S. Department of Labor – Office of Inspector General


Labor to ensure that SWAs have adequate disaster-recovery capabilities, the grant
agreement between the DOL and each SWA contain an assurance of disaster-recovery
capability. The SWAs must also submit State Quality Service Plans (SQSPs) with their
UI grant applications in order to receive Federal funding for the year. The SQSP serves
as a tool for the SWA UI program to plan and report performance goals to DOL. Item 10
of the grant agreement requires the SWAs (grantees) to comply with the assurances in
the grant and is incorporated by reference into the SQSP:

      10. Certifications and Assurances. In performing its responsibilities under
      this agreement, the Grantee will fully comply with the following SQSP
      assurances, which are incorporated into this agreement by reference. The
      SQSP assurances are listed below and are detailed in Chapter 1, Part VII
      of the SQSP Planning and Reporting Guidelines, Employment and
      Training Handbook No. 336 (18th Edition).

The “Assurance of Disaster Recovery Capability” (Assurance H) is explained in more
detail in ET Handbook No. 336, 18th Edition, Unemployment Insurance SQSP Planning
and Reporting Guidelines. The handbook details that, “The state assures that it will
maintain a Disaster Recovery Plan.”

IT contingency planning is an essential element of a disaster-recovery capability.
Proper contingency planning ensures the continued availability of an information system
in the event of a disruption due to a disaster or other system interruption. The Secretary
requires the SWAs to attest to this capability in order to reduce the risk of UI program
unavailability. In accordance with NIST SP 800-34, proper IT contingency planning can
assist in maintaining the continued availability of an information system in the event
of disaster or other system disruption:

      IT systems are vulnerable to a variety of disruptions, ranging from mild
      (e.g., short-term power outage, disk drive failure) to severe (e.g.,
      equipment destruction, fire). Many vulnerabilities may be minimized or
      eliminated through technical, management, or operational solutions as
      part of the organization’s risk management effort...Contingency planning is
      designed to mitigate the risk of system and service unavailability by
      focusing on effective and efficient recovery solutions.

OMB A-130 specifically notes that manual processes are not an acceptable solution for
interruptions to service:

      Inevitably, there will be service interruptions. Agency plans should assure
      that there is an ability to recover and provide service sufficient to meet the
      minimal needs of users of the system. Manual procedures are generally
      NOT a viable back-up option. When automated support is not available,
      many functions of the organization will effectively cease. Therefore, it is
      important to take cost effective steps to manage any disruption of service.



                                                 Unemployment Insurance IT Contingency Planning
                                            22                     Report No. 23-08-004-03-315
                                         U.S. Department of Labor – Office of Inspector General


In addition, OMB A-130 explores the importance of testing for contingency plans noting
that:

      Experience has shown that recovery plans that are periodically tested are
      substantially more viable than those that are not. Moreover, untested
      plans may actually create a false sense of security.

OMB A-130 also stresses the importance of NIST as a tool to guide management in IT
contingency planning, detailing that managers should:

      Plan for adequate security of each general support system as part of the
      organization's information resources management planning process. The
      security plan shall be consistent with guidance issued by the National
      Institute of Standards and Technology.




                                               Unemployment Insurance IT Contingency Planning
                                          23                     Report No. 23-08-004-03-315
               U.S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




                     Unemployment Insurance IT Contingency Planning
                24                     Report No. 23-08-004-03-315
                                           U.S. Department of Labor – Office of Inspector General


                                                                                APPENDIX B
OBJECTIVE, SCOPE, METHODOLOGY AND CRITERIA

Objective

Our audit was designed with the following overall objective:

   Does ETA provide sufficient oversight of SWA IT contingency planning for the UI
   program in order to minimize service disruption in the event of a disaster or other
   situation that may disrupt normal operations?

Scope

We conducted audit fieldwork from August 2, 2007, through June 3, 2008. During this
period we assessed the monitoring program in place at ETA to determine the sufficiency
of its oversight regarding the SWAs’ development of IT contingency plans. We
conducted detailed audit work assessing the adequacy of the SWA UI system IT
contingency plans in four disaster-prone SWAs. In addition, we determined if plans
were in place for all 53 SWAs. Our audit included a review of laws and regulations
which were reviewed for compliance. This audit was not designed to follow-up on any
previous OIG or other organization audit reports.

In planning and performing our audit, we considered internal controls related to SWA IT
contingency-planning activities for the UI program and ETA’s monitoring of these
activities by obtaining an understanding of the program’s internal controls, determining
whether internal controls had been placed in operations, and assessing control risk in
order to determine our auditing procedures for the purpose of achieving our objective.
The objective of our audit was not to provide assurance on the internal controls.
Consequently, we did not express an opinion on the internal controls as a whole, but
rather how they related to our objective. Therefore, we evaluated the internal controls
as they pertained to ETA’s monitoring of the SWAs’ assurances of disaster-recovery
capability.

Our consideration of internal controls related to ETA’s monitoring of the SWAs’
assurances of disaster-recovery capabilities would not necessarily disclose all matters
that might be reportable conditions. Because of inherent limitations in internal controls,
misstatements, losses, or noncompliance may nevertheless occur and may not be
detected.

Our audit scope included an assessment of IT contingency-planning activities. The
grant agreement between ETA and the SWAs requires maintenance of a disaster-
recovery plan for the UI program, which we interpreted as IT contingency plans. In
accordance with NIST SP 800-34:




                                                 Unemployment Insurance IT Contingency Planning
                                            25                     Report No. 23-08-004-03-315
                                           U.S. Department of Labor – Office of Inspector General


       IT contingency planning represents a broad scope of activities designed to
       sustain and recover critical IT services following an emergency… In
       general, universally accepted definitions for IT contingency planning and
       these related planning areas have not been available. Occasionally, this
       unavailability has led to confusion regarding the actual scope and purpose
       of various types of plans…Because of the lack of standard definitions for
       these types of plans, in some cases, the scope of actual plans developed
       by organizations may vary.

NIST SP 800-34 goes on to define Disaster Recovery Plans (DRP) as follows:
“Frequently, DRP refers to an IT-focused plan designed to restore operability of the
target system, application, or computer facility at an alternate site after an emergency.”

Specific work was conducted using a sample of FY2008 SWA UI grant agreements as
well as the current IT contingency plans. Fieldwork was completed in four SWAs, three
ETA ROs, and the ETA HQ in Washington, DC. Our sampling methodology for detailed
contingency plan testing is based on FY 2007 FEMA data of the highest number of
disasters declared by state, and comprised the following SWAs: California (CA), Texas
(TX), New York (NY), and Louisiana (LA). Selection of these four SWAs led us to
review the three ETA ROs located in Dallas, TX; San Francisco, CA; and Boston,
Massachusetts with administrative responsibility over the SWAs. Our risk-based
approach allowed us to assess all SWAs' contingency plans to some degree, with more
focused attention on the highest risk states, based on historical data.

We performed on-site fieldwork at four SWAs where we observed SWA personnel
activities; inspected relevant documentation; performed operational security tests when
applicable, including expanded testing in the CA SWA. We also interviewed
management and staff involved in the implementation and management of the disaster-
recovery capabilities at the SWAs to understand the current IT contingency-planning
capabilities and the awareness of preparedness and personnel in key roles at the
respective SWA locations.

Our on-site fieldwork in the SWAs was conducted in a sequential basis in the four
SWAs, as follows:

   •   At the CA SWA, Employment Development Department (EDD), located in
       Sacramento, CA from August 24, 2007, through October 26, 2007. Analysis and
       testing of documentation received occurred at the CA EDD Central Office and
       our Washington, DC HQ.
   •   At the NY SWA, New York Department of Labor (NY DOL), located in Albany, NY
       from November 13, 2007, through December 21, 2007. Analysis and testing of
       documentation received occurred at the NY DOL Central Office and our
       Washington, DC HQ.
   •   At the LA SWA, Louisiana Department of Labor (LDOL), located in Baton Rouge,
       LA from January 8, 2008, through February 7, 2008. Our audit work included



                                                 Unemployment Insurance IT Contingency Planning
                                            26                     Report No. 23-08-004-03-315
                                         U.S. Department of Labor – Office of Inspector General


       interviews with the LDOL, and analysis and testing of documentation received at
       the LDOL Building and our Washington, DC HQ.
   •   At the TX SWA, Texas Workforce Commission (TWC), located in Austin, TX from
       January 22, 2008, through February 28, 2008. Analysis and testing of
       documentation received occurred at the TWC Building and our Washington, DC
       HQ.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

Methodology

To achieve our objective, we evaluated current contingency plans in place at four SWAs
located in CA, TX, NY, and LA. We also reviewed ETA oversight activities in ETA ROs
and HQ. We tested to determine if the SWAs have adequate IT contingency plans in
place to support critical UI program functions in the event of a disaster or service
disruption to the IT supporting the UI program. We selected a sample of 4 SWAs, from
a universe of 53, for detailed examination. The sample states were judgmentally
selected from a list of SWAs determined to be high-risk based on historical data and
professional judgment regarding frequency of disasters declared in each state from
FEMA, as shown in the following table:




                                               Unemployment Insurance IT Contingency Planning
                                          27                     Report No. 23-08-004-03-315
                                                           U.S. Department of Labor – Office of Inspector General



                             FEMA Number of Disasters Declared by State/Territory
                                                 1953-2007

                                                       Number of Disasters Declared
                                             0   10   20    30        40     50      60      70      80      90

                                   Texas
                               California
                                  Florida
                              New York
                               Louisiana
                              Oklahoma
                                Alabama
                               Kentucky
                          Pennsylvania
                                     Ohio
                            Mississippi
                                  Illinois
                               Arkansas
                          West Virginia
                            Washington
                                 Virginia
                             Minnesota
                             Tennessee
                                Missouri
                         North Carolina
                                 Kansas
                                     Iowa
 State/Territory




                          North Dakota
                               Nebraska
                                 Indiana
                                 Georgia
                                  Alaska
                             Wisconsin
                                   Maine
                          South Dakota
                                 Oregon
                            New Jersey
                               Michigan
                     Federated States
                                Vermont
                                  Hawaii
                       Massachusetts
                            Puerto Rico
                           New Mexico
                                    Idaho
                                 Arizona
                       New Hampshire
                               Maryland
                                Montana
                                 Nevada
                        South Carolina
                                Colorado
                     Northern Mariana
                     US Virgin Islands
                            Connecticut
                                   Guam
                               Delaware
                     American Samoa
                               Wyoming
                                     Utah
                      Marshall Islands
                   District of Columbia
                          Rhode Island
                                   Palau
Figure 1: FEMA Number of Disasters Declared by State/Territory.



                                                                 Unemployment Insurance IT Contingency Planning
                                                            28                     Report No. 23-08-004-03-315
                                         U.S. Department of Labor – Office of Inspector General


We assessed the selected sample of SWAs' UI systems’ IT contingency-planning
controls against NIST SP 800-34 and NIST SP 800-53, Revision 1, Recommended
Security Controls for Federal Information Systems. These standards are widely
recognized as industrial best practices for contingency-planning activities and ETA
encourages the SWAs to utilize NIST guidance when implementing information security
controls, which include IT contingency planning. Specifically, we assessed the
contingency planning (CP) control family including the ten controls in that family, as
follows:

   •   CP-1 Contingency Planning Policy and Procedures
   •   CP-2 Contingency Plan
   •   CP-3 Contingency Training
   •   CP-4 Contingency Plan Testing and Exercises
   •   CP-5 Contingency Plan Update
   •   CP-6 Alternate Storage Site
   •   CP-7 Alternate Processing Site
   •   CP-8 Telecommunications Services
   •   CP-9 Information System Backup
   •   CP-10 Information System Recovery and Reconstitution

Related to the four sampled SWAs, our audit methodology included detailed
examinations of SWA IT contingency plans and related documentation. We conducted
interviews of personnel and agency officials involved in the implementation and
maintenance of the SWAs’ IT contingency plans. We briefed and provided a Statement
of Facts to SWA officials who generally agreed with the facts presented. We also
requested IT contingency plans for the 53 SWAs and reviewed those submitted.

In order to assess ETA’s oversight of contingency planning in the SWAs, we conducted
interviews and document analysis at the three ETA ROs and the ETA NO. This was
designed to assess the grant administration and monitoring activities conducted by ETA
in support of the Federal-State UI partnership. We reviewed the Federal-State UI grant
agreement and the level of guidance, review, and monitoring done at the Federal level.

Criteria

   •   ET Handbook No. 336 - State Quality Assurance Plans
   •   UIPL No. 24-04 - Unemployment Insurance Information Technology Security
   •   NIST SP 800-34, Contingency Planning for Information Technology Systems
   •   NIST SP 800-53, Revision-1, Recommended Security Controls for Federal
       Information Systems
   •   FEMA, Declared Disasters by Year or State, as of May 23, 2007.
   •   OMB A-123, Management’s Responsibility for Internal Control
   •   29 CFR 97.43 (2006)
   •   29 CFR 97.50 (2006)
   •   20 CFR 602.00 (2008)
   •   Social Security Act of 1935

                                               Unemployment Insurance IT Contingency Planning
                                          29                     Report No. 23-08-004-03-315
                                    U.S. Department of Labor – Office of Inspector General


•   OMB A-130, Management of Federal Information Resources, Appendix III,
    Security of Federal Automated Information Resources
•   Government Auditing Standards, July 2007 Revision




                                          Unemployment Insurance IT Contingency Planning
                                     30                     Report No. 23-08-004-03-315
                                        U.S. Department of Labor – Office of Inspector General


                                                                             APPENDIX C
ACRONYMS AND ABBREVIATIONS

A-130    Management of Federal Information Resources, Appendix III, Security of
          Federal Automated Information Resources
CFR      Code of Federal Regulations
CP       Contingency Planning
DOL      United States Department of Labor
DRP      Disaster Recovery Plans
EDD      Employment Development Department (California)
ETA      Employment and Training Administration
ET       Employment and Training
FEMA     Federal Emergency Management Agency
FY       Fiscal Year
HQ       Headquarters
ISO      Information Security Officer
IT       Information Technology
LDOL     Louisiana Department of Labor
NIST     National Institute of Standards and Technology
NO       National Office
NY DOL   New York Department of Labor
OIG      Office of Inspector General
OMB      Office of Management and Budget
RO       Regional Office
SP       Special Publication
SQSP     State Quality Service Plan
SWA      State Workforce Agency
TWC      Texas Workforce Commission
UI       Unemployment Insurance
UIPL     Unemployment Insurance Program Letter




                                              Unemployment Insurance IT Contingency Planning
                                         31                     Report No. 23-08-004-03-315
               U.S. Department of Labor – Office of Inspector General




PAGE WAS INTENTIONALLY LEFT BLANK




                     Unemployment Insurance IT Contingency Planning
                32                     Report No. 23-08-004-03-315
                            U.S. Department of Labor – Office of Inspector General


                                                                 APPENDIX D
AGENCY RESPONSE TO REPORT




                                  Unemployment Insurance IT Contingency Planning
                             33                     Report No. 23-08-004-03-315
U.S. Department of Labor – Office of Inspector General




      Unemployment Insurance IT Contingency Planning
 34                     Report No. 23-08-004-03-315
U.S. Department of Labor – Office of Inspector General




      Unemployment Insurance IT Contingency Planning
 35                     Report No. 23-08-004-03-315
